  Office of Inspector General
       Audit Report


 COMPLETING A GRANTS MANAGEMENT
   FRAMEWORK CAN ENHANCE FRA’S
ADMINISTRATION OF THE HSIPR PROGRAM
        Federal Railroad Administration
         Report Number: CR-2012-178
        Date Issued: September 11, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Completing a Grants Management                                             Date:    September 11, 2012
           Framework Can Enhance FRA’s Administration of
           the HSIPR Program
           Federal Railroad Administration
           Report Number: CR-2012-178
  From:    Mitchell Behm                                                                   Reply to
                                                                                           Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime and
             Economic Analysis

    To:    Federal Railroad Administrator


           In the 3 years since it set up the High Speed Intercity Passenger Rail Program
           (HSIPR), the Federal Railroad Administration (FRA) has awarded and obligated
           over 95 percent of the program’s $10.1 billion in grant funds1—$8 billion of
           which was appropriated by the American Recovery and Reinvestment Act of 2009
           (ARRA). HSIPR gave FRA significant new grant-making and oversight duties,
           presenting unique challenges for the Agency. Strict funding deadlines for HSIPR
           grant funds, especially those that ARRA provides, have further challenged the
           Agency in awarding and obligating the funds.

           According to the Government Accountability Office (GAO) and others, promising
           practices in grants management call for a comprehensive framework to be in place
           before an agency awards funds to grantees. As part of our ongoing ARRA
           oversight, we assessed FRA’s grants management framework in the following
           areas: (1) policies, procedures, and guidance; (2) workforce adequacy; and
           (3) program performance mechanisms.

           To conduct our work, we met with officials from FRA and the Office of the
           Secretary of Transportation (OST); reviewed and analyzed policies, procedures,
           and practices in place and under development; and analyzed supporting
           documentation. We interviewed a sample of 12 of the 38 HSIPR grant

           1
               Though it has legally obligated the funds, FRA has stated that disbursement will not occur until grantees secure and
               implement all required agreements among project stakeholders for their projects.
                                                                                  2


recipients—accounting for 90 percent of awarded HSIPR funds—regarding their
experiences with program administration. We also administered surveys to two
groups of FRA’s HSIPR personnel—its four grant managers and nine regional
managers—regarding their experiences with program administration. We
performed our work from March 2011 through June 2012 in accordance with
generally accepted Government auditing standards.

RESULTS IN BRIEF

FRA recently completed its Grants Management Manual—which sets forth the
policies and procedures for HSIPR grants management. The manual includes
chapters on grant solicitation, administration, oversight, and closeout. However, in
an effort to meet ARRA timelines and other requirements, FRA obligated
$9.6 billion in grant funds while simultaneously developing its grant management
policies and procedures. The manual also provides some guidance on how to
manage HSIPR grants; however, FRA determined that additional guidance on
standard operating procedures is needed to help ensure HSIPR program staff and
grantees comply with the policies and procedures. The Agency established
workgroups to develop this guidance but did not establish timelines for all of the
workgroups to complete the additional guidance. Further, FRA has not provided
these workgroups with comprehensive grantee feedback on how to improve the
grant administration program. Such information would help the workgroups
develop guidance that meets the grantees’ needs.

Insufficient staffing and training further undermine FRA’s efforts to effectively
administer and ensure the accountability of HSIPR grant funds across all its active
programs. FRA received congressional authorization for 51 HSIPR personnel, and
as of March 2012 had 39 personnel on board. FRA officials cited difficulty in
hiring candidates with appropriate expertise to fill specialized positions, such as
grant managers. FRA is currently working to fill the vacancies, and with OST
assistance, is updating its workforce plan and looking for ways to address its
staffing shortages. However, for its current staff, FRA has not developed a
comprehensive training curriculum on the policies, procedures, and guidance for
HSIPR grants administration—largely because the Agency only recently
completed its Grants Management Manual. FRA also does not require personnel
to complete fraud awareness training.

FRA also lacks effective mechanisms for assessing program and grantee
performance. While FRA has outlined HSIPR goals in several documents—
including the Agency’s strategic plan for high speed rail and its fiscal year 2013
budget request—the goals are inconsistent across these documents. For some
goals, the inconsistencies cannot be reconciled, making it difficult for grant
                                                                                 3


managers and decision makers, including Congress, to know what goals the
program is to achieve. Moreover, the goals’ performance measures are not specific
enough to determine overall program progress. For example, one HSIPR goal is to
upgrade existing intercity passenger rail corridors to improve reliability, speed,
and frequency of existing services. However, the goal does not include measures
that indicate progress, such as anticipated trip time improvements, additional
trains, and ridership gains. FRA mechanisms for assessing grantee performance
are similarly weak. For example, the Agency does not capture data on grantees’
performance and compliance, such as the extent to which grantees meet
submission deadlines for required grant documentation and progress reports. FRA
is developing a monitoring tool to capture such data. Finally, FRA’s interim plan
for monitoring grantee performance and compliance did not include timeframes or
required resources. Consequently, FRA did not conduct performance and
compliance reviews as planned, though the Agency completed its final plan in
March 2012.

We are making five recommendations to FRA to improve HSIPR grant fund
administration and accountability.

BACKGROUND

The Passenger Rail Investment and Improvement Act of 2008 (PRIIA)2 greatly
expanded FRA’s role in developing and managing the Nation’s rail system,
including creating the HSIPR grant program. The Agency was tasked with
awarding, obligating, and disbursing $10.1 billion in ARRA and Department of
Transportation (DOT) funds, some of which were authorized by PRIIA
(see Table 1) and totaled nearly four times its entire operating budget request for
fiscal year 2010.




2
    P. L. No.110-432 Div. B.
                                                                                                                   4


Table 1. FRA’s HSIPR-Related Grant Initiatives
Initiative                                          Source Statute           Funding
Intercity Passenger Rail Service Corridor           PRIIA                    $1.9 billion authorized from
Capital Assistance Program                                                   FY2009-FY2013
High Speed Rail Corridor Development                PRIIA                    $1.5 billion authorized from
Program                                                                      FY2009-FY2013
Congestion Grant Program                            PRIIA                    $325 million authorized from
                                                                             FY2010-FY2013
Discretionary grant programs to develop             ARRA                     $8 billion appropriated with
and enhance high speed rail corridors               appropriations           obligation deadline of Sept.
and intercity passenger rail services                                        2012

Funds specified through DOT’s annual                DOT                      $2.1 billion appropriated to
fiscal year appropriations                          appropriations           DOT in FY2010

Source: OIG analysis

HSIPR grants go to eligible States and high speed rail authorities for projects that
focus on one or more of three objectives: constructing new high speed rail
corridors, upgrading high speed rail services on existing intercity passenger rail
corridors, and planning future high speed rail services.3 As a discretionary grants
program,4 HSIPR requires FRA’s grant managers and regional managers5 to carry
out responsibilities in the lifecycle phases of discretionary grants management
(see Figure 1)—which the Agency has had little experience with.

Figure 1. The Lifecycle of a Discretionary Grant




Source: GAO, FMCSA: Additional Actions Needed to Strengthen Grants Management, GAO-12-
158. December, 2011.



To carry out these responsibilities, FRA developed a management framework
aimed at establishing policies and procedures, a workforce structure, performance

3
    High Speed Intercity Passenger Rail Program, Federal Railroad Administration, U.S. Department of Transportation.
4
    Grants are often classified by their methods of fund allocation—either as formula grants or discretionary grants.
    Agencies allocate funds to formula grants through distribution formulas prescribed by statute or administrative
    regulation. Agencies award discretionary grants on a competitive basis to eligible applicants.
5
    Grant managers handle the numerous administrative and monitoring tasks associated with the grants, such as
    reimbursement requests, site visits for grant monitoring, and reviewing grant files for compliance, while they
    simultaneously support non-HSIPR grant programs. Regional managers serve as grantees’ primary points of contact
    throughout the grants’ lifecycles.
                                                                                                 5


measurements, and grant oversight. GAO’s Federal grants management reviews,
DOT’s Financial Assistance Guidance Manual, and other sources cite promising
practices that an agency should incorporate in a grants management framework to
ensure accountability of grant funds (see Table 2).
Table 2. Promising Practices in Grants Management
Practice                    Key Objectives of Each Practice
Establish policies and        To develop a grants management process guided by
procedures to support the      standardized and transparent policies and procedures.
grants management             To establish communication channels and knowledge
lifecycle.                     libraries, such as frequently asked questions, to assist
                               grantees.
Establish a grants            To establish a workforce that is adequately sized, trained, and
management workforce and       familiar with statutory and regulatory requirements, as well as
organizational structure.      departmental processes.
Establish performance         To establish programmatic goals to provide a guide for the
measurements to assess         grant management lifecycle.
program progress.             To establish performance measures to track progress toward
                               achievement of programmatic goals.
Establish oversight           To ensure the grant program meets programmatic goals.
programs to manage            To ensure adherence to grant terms, as well as applicable
grantee performance.           statutory and regulatory requirements.
                              To develop a centralized grants management information
                               system for agency and grantee use.
                              To rate project risk based on adequacy of grantee systems
                               such as internal controls and financial management.
Develop a plan for grant      To identify opportunities to improve grant program
program assessment and         performance and effectiveness.
adjustment.a                  To design and implement programmatic changes, as needed,
                               to the future grants management process.
Source: OIG analysis
a
  As HSIPR is not mature enough to warrant review of FRA’s program assessment and
adjustment, we did not assess this component.

FRA RECENTLY COMPLETED KEY HSIPR POLICIES AND
PROCEDURES BUT CONTINUES TO LACK GUIDANCE

FRA recently completed its Grants Management Manual, which puts forth HSIPR
program policies and procedures. However, for the first 3 years of the program,
grants were administered without complete policies and procedures. While the
Agency has established workgroups to complete the development of guidance for
following HSIPR policies and procedures, staff and grantees continue to lack
complete guidance to navigate HSIPR’s complex requirements.
                                                                                                                 6


HSIPR Staff Have Managed Funds With Incomplete Policies,
Procedures, and Guidance

Since 2009, FRA has administered HSIPR grants without complete policies and
procedures to ensure effective grants management. The Agency began drafting its
Grants Management Manual in April 2010, with the help of private industry
consultants. It released the complete manual in April 2012, 2 years after the effort
began and almost 3 years after it assumed responsibility for administering HSIPR
funds. During this time, the Agency obligated nearly $9.6 billion of HSIPR funds.
According to FRA officials, the Agency chose to prioritize HSIPR grant awards
and obligations over the manual’s completion due to staff constraints.

A key chapter in the manual, which was more than 75 percent incomplete until
March 2012, provides critical guidance to grant managers on their roles and
responsibilities for ensuring grantees comply with grant terms. In some cases of
noncompliance, the manual calls for the temporary withholding of payments to the
grantee; in more severe cases, the manual calls for potential suspension of a grant.
The manual also suggests interim procedures grant managers may take to address
less severe forms of grantee noncompliance, such as late submissions of required
grant documentation. The recent completion of these procedures should help
provide accountability and minimize the risk that HSIPR funds—the majority of
which remain to be disbursed—will be misused or mismanaged. The manual’s
chapter that addresses the HSIPR grant monitoring process also remained
incomplete until FRA finalized its monitoring plan in March 2012. FRA issued an
interim plan in March 2011, but it did not integrate it into the manual—even
though some HSIPR projects have entered the monitoring stage of the grant
lifecycle. Furthermore, the interim plan did not include important components,
such as information on monitoring timeframes and allocating staff to conduct site
visits and execute other duties.

According to FRA officials, several documents the Agency considers to be
guidance—including the September 2010 draft version of the manual, the interim
monitoring plan, and its “Deliverable Review Guidebook”6—were provided to
grant personnel. However, according to our survey of FRA staff responsible for
administering HSIPR grants, five of the nine regional managers and three of the
four grant managers stated that FRA did not provide enough guidance to help
them successfully execute their required duties (see Figure 2).




6
    The guidebook contains a list of documents that grantees submit to FRA, and outlines FRA’s responsibilities for
    document review and how long reviews should take.
                                                                                                                                  7


Figure 2. Results Based on Responses to Selected Survey
Questions

         Do you currently have sufficient resources to allow you to execute 
                          all duties required of you as a regional manager?


        Do you currently have sufficient resources to allow you to execute 
                            all duties required of you as a grant manager?


         Could FRA provide you with more guidance to better assist you in 
    successfully executing all duties required of you as a regional manager?

          Has FRA provided you with guidance to assist you in successfully 
               executing all duties required of you as a regional manager?


          Has FRA provided you with guidance to assist you in successfully 
                 executing all duties required of you as a grant manager?

                                                                               0   1   2       3       4         5        6   7   8


                                                                                           Number of Survey Respondents

                                                                                                      NO   YES


Source: OIG Survey

Regional and grant managers’ survey responses also indicated that the Agency’s
guidance needs more detail. For example, of the four regional managers who
stated that FRA had provided them with guidance, three indicated that FRA could
provide more to help them successfully execute duties, including more detailed
standard operating procedures and guidance for completing statements of work
and clarifying team members’ roles and responsibilities. Two grant managers
indicated that FRA could provide more guidance related to financial management
and a clear grantee reimbursement process. A lack of comprehensive guidance
undermines FRA’s policies and procedures for ensuring grantees comply with
grant terms and use HSIPR funds appropriately.

HSIPR Grantees Have Similarly Operated With Limited Guidance from
FRA

FRA guidance to help HSIPR grantees complete required documentation,
including grant applications, has also been limited. While FRA provides general
grant application guidance to HSIPR grantees through its Notice of Funding
Availability7 announcements and Webinars on the application process, the
guidance does not explain how to navigate the complex grant lifecycle process,
which could result in inefficiencies, mismanagement, and ultimately project
delays. For example, one grantee indicated that due to a lack of detailed guidance,

7
    A Notice of Funding Availability formally announces the availability of Federal funding and solicits grantee
    applications.
                                                                                                                     8


his State had to draft 10 iterations of a statement of work8 in order to meet FRA’s
application requirements. Overall, 9 of the 12 grantees we interviewed indicated
that FRA could have provided more guidance to help them develop the required
application documentation.

FRA regional and grant managers also noted areas in which FRA could provide
grantees more assistance. For example, seven regional managers informed us that
grantees could use more guidance on the Agency’s requirements for grant
obligation, such as project scope, schedule, and budget, as well as general grant
management practices. Furthermore, several grant managers told us that grantees
have had trouble completing required reports and forms correctly and in a timely
manner due to the lack of detailed guidance.

At the same time, FRA does not have a systematic grantee feedback process to
help improve HSIPR administration. Grantees have provided feedback to FRA on
their projects’ status at the Standing Committee on Rail Transportation’s annual
conference,9 and during biweekly conference calls coordinated with the American
Association of State Highway and Transportation Officials (AASHTO).10
However, FRA does not have a survey or other formal process in place to receive
feedback from HSIPR grantees and participating transportation associations. Eight
of the 12 grantees we spoke with stated that FRA has not solicited feedback from
them, while the other 4 stated that FRA informally solicited feedback during
meetings and conference calls. FRA informed us that it plans to solicit feedback
during its grants monitoring site visits, but the Agency is in the early stages of its
monitoring program’s implementation and has conducted only 4 of 22 planned site
visits. Comprehensive grantee feedback could help the Agency identify
administrative problems and needed improvements.

FRA Workgroups Have Been Tasked With Developing Guidance for
HSIPR Staff and Grantees

In June 2011, FRA created three workgroups to help identify and develop standard
operating procedures, templates for required documents, and technical guidance
for use by both its grants staff and grantees. Table 3 summarizes these
workgroups, their deliverables, and their progress. According to FRA officials, the


8
     A Statement of Work describes the programmatic aspects of a grant project, including the project itself, a work
     schedule, deliverables, and any stipulations that require a grantee to complete and submit environmental
     documentation.
9
     The committee addresses all policy, regulatory, safety and enforcement issues that impact the ability of States to
     develop and maintain their portions of an efficient rail network. The annual conference brings together members of
     the transportation community and other stakeholders.
10
     AASHTO is a nonprofit, nonpartisan association that represents highway and transportation departments in the
     States, the District of Columbia, and Puerto Rico.
                                                                                                                       9


Agency plans to use the HSIPR grants management guidance that the workgroups
develop to help administer its other grant programs.
Table 3. FRA’s Workgroups on HSIPR Program Guidance
Group                               Description/Deliverable                           Target Dates
Technical Assistance               Work to prioritize 21 subject areas on             No timeline or target dates
                                   which FRA needs guidance and to                    have been set for
                                   develop associated policies and                    completion.
                                   procedures.
Business Processes                 Develop best practices for business                No timeline or target dates
                                   processes, focusing primarily on                   have been set for
                                   communications and program                         completion.
                                   management.
Monitoring                         Develop a formal HSIPR monitoring                  FRA completed its formal
                                   plan.                                              plan in March 2012.
Source: OIG analysis

FRA’s monitoring workgroup met its March 2012 target for completing a formal
HSIPR monitoring plan. However, the Technical Assistance and Business
Processes workgroups continue their efforts, and FRA officials have not
established timelines for completing this work, which is critical to ensure missing
guidance is developed and implemented in a timely manner.

FRA’S HSIPR STAFF NUMBERS AND TRAINING FALL SHORT OF
THE AGENCY’S IDENTIFIED NEEDS

FRA has also been challenged to establish a viable HSIPR workforce. Currently,
FRA has less than half of the staff it determined were needed to successfully
implement and operate HSIPR. FRA officials cited difficulty in hiring qualified
candidates for critical program roles. In addition, FRA has not developed a
comprehensive training curriculum for personnel who administer HSIPR grants.

Key HSIPR Workforce Positions Remain Open

In 2009, FRA began conducting a workforce assessment, following best practices
in workforce planning, and determined that it needed 86 staff to effectively
administer and oversee HSIPR grants.11 Congress authorized 51 positions, which
the Agency based its updated workforce plans on, and as of March 2012, FRA had

11
     FRA has defined three staffing levels at which HSIPR can operate: Full Operations would allow management that
     includes coordinated operations with a clear national perspective, and leadership and strategic management; Basic
     Operations would allow management that employs a level of coordination, partnership, and capacity building less
     than full operations, with a moderate level of formal monitoring; Constrained Operations requires management to
     emphasize financial stewardship and focus on compliance rather than partnering, capacity building, and cross-project
     coordination.
                                                                                                                      10


39 personnel in the Office of Passenger and Freight Programs (RPD-10)—the
division primarily responsible for HSIPR.12

For full HSIPR operations, FRA determined it needed eight grant managers, who
assume some of the greatest responsibility for the program. To date, FRA has
hired four grant managers—one for each of its regions (see Figure 3).

Figure 3. Map of FRA’s HSIPR Grant Management Regions
                                                                              Central
                                                                        1 Grant Manager
                                                                        2 Regional Managers




                                                                                                            East
                                                                                                      1 Grant Manager
            West                                                                                      2 Regional Managers
          (and Alaska)

      1 Grant Manager
      3 Regional Managers




                                                                      South
                                                                1 Grant Manager
                                                                2 Regional Managers



Source: OIG’s reconstruction based on an FRA map

FRA has attempted to hire at least one more grant manager, but officials stated
that while a recent announcement for a grant manager attracted many applicants,
they continue to experience challenges finding qualified candidates. In the
meantime, FRA’s four grant managers continue to oversee a HSIPR grant
workload that FRA has determined requires twice as many managers, as well as
carry out their oversight duties for other grant programs. Including HSIPR, FRA’s
grant managers oversee nine active grant programs, containing 315 individual
grants totaling approximately $16.3 billion in funding (see Table 4). Grant and
regional manager responsibilities for these programs are assigned by geographic
region.




12
     FRA’s Office of Passenger and Freight Programs in the Office of Railroad Policy and Development provides
     financial assistance, quantitative analysis, environmental research, project reviews, research and development, and
     technical assistance, and supports development of intercity passenger rail policy.
                                                                                         11


Table 4. Grant Programs Managed by FRA’s RPD-10 Grant
Managers
Grant Program                                                  Number of    Value of Grants
                                                            Active Grants       (in Millions)
High-Speed Intercity Passenger Rail Program (HSIPR)                  151            $10,089
Amtrak (Operating and Capital)                                        14               5,650
Transportation Investment Generating Economic                         15                 240
Recovery (TIGER)
Alaska Railroad                                                       11                 149
Rail Safety Technology Program (RSTP)                                  8                  43
Rail Line Relocation and Improvement (Competitive and                 73                  89
Congressionally-directed)
Rail Line Rehabilitation and Repair (Disaster Assistance)             22                  19
Intercity Passenger Rail (Pre-PRIIA)                                  21                  28
Totals                                                               315            $16,307
Source: OIG’s analysis of FRA data

With OST’s help, FRA updated its workforce plan to determine HSIPR
administrative capabilities with staffing numbers at and below those required to
make HSIPR fully operational. As part of this process, FRA determined the effect
of various budget scenarios on the amount of assistance the Agency can offer
HSIPR grantees and the levels of grant administration and oversight it can
provide. FRA officials informed us that the Agency’s baseline goal is to meet its
fiduciary duties and oversight responsibilities over Federal grant funds.

FRA Does Not Offer a Comprehensive Training Curriculum for HSIPR
Grants Personnel

In response to our survey, FRA’s regional and grant managers expressed the need
for more training, with three of the nine regional managers stating they had not
received training to help them execute their duties. While training on FRA’s grant
policies and procedures depended on the completion of its Grants Management
Manual, FRA officials informed us that HSIPR personnel have been required to
attend Agency-provided training sessions on certain topics such as grant
monitoring and applicant outreach. Officials also stated that grant managers and
other personnel have access to external training opportunities. For example,
several grant managers are receiving certification in grants management at an
offsite training workshop.

However, other available grants management training is not required. Notably,
FRA has not required HSIPR personnel to take its fraud awareness training. This
                                                                                   12


training can help staff recognize common fraud schemes, such as conflicts of
interest or false statements, claims, and certifications. Staff insufficiently trained
in fraud awareness places HSIPR and other grant funds at risk for fraud, waste,
and abuse, and makes it difficult for FRA to be sure that all personnel can identify
and prevent the abuse of Federal grant funds.

With the recently completed Grants Management Manual, FRA has the program
policies in place that are key to informing the development of a comprehensive
training curriculum. One survey respondent stated that once program policies and
procedures are complete, FRA should offer training to ensure that all regional
managers and other staff are knowledgeable on new policies and procedures.

FRA LACKS CLEAR HSIPR GOALS, EFFECTIVE PROGRAM
MEASURES, AND COMPLETE MONITORING MECHANISMS

FRA’s HSIPR goals, which are outlined in several documents, lack the
thoroughness needed to ensure grant managers and decision makers, including
Congress, understand the goals the program aims to achieve. Moreover, FRA’s
approach to achieving its HSPIR goals has several weaknesses. First, FRA
generally lacks performance measures needed to assess the program’s progress in
achieving its goals. Second, the Agency’s tool for HSIPR grantee performance and
compliance monitoring is still in the early stages of development and
implementation. Finally, the Agency’s interim HSIPR grants monitoring plan, in
place since March 2011, did not include timeframes or required resources.

Between April 2009 and February 2012, FRA issued 10 documents containing
strategic and performance goals for HSIPR. However, some of the goals across
these documents are ineffective. For example, FRA defined one goal as the
percentage of available HSIPR funds obligated to date. While this goal might help
the Agency manage funding deadlines, it cannot help determine the extent to
which HSIPR is achieving its intended results. In addition, many goals are
inconsistent across FRA’s planning documents, and some cannot be reconciled.
Table 5 provides some examples of these inconsistencies across selected FRA
documents.
                                                                                           13


Table 5: Examples of Goals across FRA Planning Documents
                                                      Planning Documents
                                                                       FRA Initial
                                                DOT                    Response      FY2013
                                            Assessments       DOT        to Draft      FRA
                                  FRA         of FRA      Performance     Grants      Budget
 Goal                            Web Site   Performance      Plans        Report     Request

Build new HSIPR corridors           ●

Improve reliability, speed,
and frequency of rail               ●
passenger service
Lay groundwork through
                                    ●
planning efforts
Improve employment,
safety, livability, and travel                  ●
time
Improve ridership,
reliability, and market share                   ●
for rail passenger service
Monitor and improve
                                                ●                           ●
grantee performance

Obligate funds                                  ●

Provide FRA training and
technical assistance to                         ●
grantees

Decrease fuel consumption                                     ●             ●

Increase convenient
access to passenger rail                                                    ●          ●
service
Increase HSIPR
                                                              ●             ●          ●
construction starts

Increase HSIPR ridership                                      ●             ●          ●

Increase number of
corridors that meet
                                                                            ●
performance/service
standards
Increase number of
stations that meet                                                          ●
standards
Improve rail transportation
                                                                                       ●
experience

Establish HSIPR capability                                    ●

Promote U.S. based
manufacturing and
                                                              ●
technical standards for rail
equipment
Source: OIG analysis
                                                                                                                    14


In addition to lacking clear goals, FRA has not established meaningful
performance measures. For example, FRA has not established performance
measures to assess progress in achieving its goal to improve reliability, speed, and
frequency of existing services, such as anticipated trip time improvements,
additional trains, and ridership gains. The lack of clear goals and meaningful
performance measures inhibits FRA’s ability to set priorities, make the best use of
its available resources, and assess future staffing and resource needs.

FRA also lacks an effective tool to help grant managers track, manage, and
monitor grantee compliance with documentation requirements, including Federal
Financial Reports and various ARRA requirements for reporting and certification.
For example, FRA’s current tool does not identify how many days a deliverable is
overdue—key information for determining the severity of noncompliance. Instead,
the data field only captures the date that a grantee submits a progress report; it
does not indicate whether the submission was on time or late. Several grant
managers we surveyed indicated that it would be useful for FRA staff to have a
system that serves as a central database to manage grant documents. One grant
manager noted that the lack of a centralized database in which all grants can be
managed from award to close-out diminishes the program’s efficiency and
oversight. According to FRA officials, a more comprehensive project management
tool to track and monitor grantees is under development.

In March 2011, the Agency released its interim plan to guide performance and
compliance monitoring.13 However, the interim plan did not include information
on monitoring timeframes, responsibilities for monitoring personnel, and other
components to ensure monitoring activities were completed. As of January 2012,
FRA had conducted only 4 of 22 site visits called for in the interim plan due, in
part, to a lack of a strategy for deploying its monitoring staff. Given FRA’s
staffing challenges, details such as timeframes and personnel responsibilities are
especially important to help the Agency strategically allocate resources to keep
monitoring activities on track.

CONCLUSION

In the current Federal budget environment in which a myriad of programs and
projects vie for limited Federal funds, accountability for taxpayer dollars tops the
list of priorities that agencies must balance. A comprehensive grants management
framework facilitates effective grants administration and accountability of large
Federal grants. While FRA has completed portions of its framework, it continues
13
     FRA has defined two types of monitoring: routine monitoring and scheduled monitoring. The Agency describes
     routine monitoring as day-to-day activities to track progress, manage the grant award, and identify potential grant
     concerns. Scheduled monitoring consists of periodic, scheduled desk reviews and site visits to assess grantee
     compliance and programmatic review elements.
                                                                                15


to lack the policies, procedures, training, and measurable performance goals
needed to ensure grant funds are appropriately awarded and obligated and to hold
grantees accountable for the significant public investment in HSIPR. Until FRA
completes its grants management framework, HSIPR Program funds will remain
at risk for misuse.

RECOMMENDATIONS

Before awarding, obligating, and disbursing additional grant funds, the Federal
Railroad Administrator should take the following actions to complete a
comprehensive framework for effectively administering the HSIPR program:

 1. Establish milestones for the Agency’s Technical Assistance and Business
    Processes workgroups to complete guidance on grant management policies
    and procedures.

 2. Establish a process for HSIPR grantees to provide standardized feedback on
    the program.

 3. Develop a comprehensive grants management training curriculum for HSIPR
    staff that includes a required fraud training component.

 4. Establish clear program goals that contain measures to assist managers and
    decision makers in assessments of HSIPR goal achievement and overall
    program progress.

 5. Develop a standardized mechanism for collecting and tracking HSIPR
    grantee performance and compliance metrics.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of our report to FRA on June 15, 2012, and on
August 16, 2012, received FRA’s full response, which can be found in its entirety
in the appendix of this report. FRA concurred with all five of our
recommendations, and provided target action dates for completing
recommendations 1, 2, 3 and 5. With regard to recommendation 4, FRA stated that
they currently provide program performance reports to the Office of the Secretary
that include scorecard reviews with cohesive performance measures, and therefore
requested that the recommendation be closed. To close this recommendation, we
are requesting that FRA provide copies of the performance reports referenced in
its response to allow us to verify that they have resolved the issues identified in
our report.
                                                                              16




ACTIONS REQUIRED

We consider FRA’s planned actions and target dates for recommendations 1, 2, 3
and 5 reasonable and, therefore, resolved but open pending completion of the
planned actions, and subject to follow-up provisions in accordance with DOT
Order 8000.1C. We request that within 30 days of this report, FRA provide in
writing the cohesive goals and measures referenced in its response, at which time
we will determine whether or not additional actions are required.

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-9970 or Toayoa Aldridge, Program Director, at (202) 366-2081.

                                       #

cc: Audit Liaison, OST, M-1
    Audit Liaison, FRA, RAD-43
                                                                                           17


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our audit work from March 2011 through June 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To evaluate FRA’s grants management framework for HSIPR administration, we
interviewed FRA officials and grant recipients and reviewed FRA’s grants
program policies and guidance to define the current framework. We compared
FRA’s grants management framework to a set of promising practices in grants
management. To develop this set of practices, we reviewed federally recognized
practices from organizations with responsibilities for, or expertise in, grants
management and oversight. These documents are noted in Table A.

Table A. Guidance and Reports Used To Identify Recommended
Grant Management Practices

Source                         Guidance or Report
Office of Personnel            Human Capital Assessment and Accountability Framework
Management                     (HCAAF)
Department of Transportation   Financial Assistance Guidance Manual (March 2009)
                               Grant Accountability Project, Guide to Improving Grant
Domestic Working Group
                               Accountability (October 2005)
Department of Justice, OIG     Improving the Grant Management Process (February 2009)
Government Accountability      Grants Management, Additional Actions Needed to Streamline
Office                         and Simplify Processes, GAO 05-335 (April 2005)
                               Grants Management, Enhancing Performance Accountability
                               Provisions Could Lead to Better Results, GAO 06-1046
                               (September 2006)
                               Standards for Internal Control in the Federal Government,
                               GAO/AIMD-00-21.3.1 (November 1999)


Source: OIG Analysis

To assess FRA’s policies, procedures and guidance for HSIPR’s administration,
we met with officials from FRA and the OST; reviewed and analyzed policies,
procedures, and practices in place and under development; and analyzed
supporting documentation. We also administered surveys to FRA’s four HSIPR


Exhibit A. Scope and Methodology
                                                                                            18


grant managers and nine regional managers, regarding their experiences with
HSIPR’s administration.

We also interviewed a sample of 12 of the 38 HSIPR grant recipients regarding
their experiences with program administration (see Table B). We selected our
sample based on two criteria—total funds awarded and number of individual
grants awarded. We selected the seven with the highest totals, which accounted for
more than 80 percent of the HSIPR funds awarded. We selected an additional five
from the remaining grantees with highest total numbers of individual grants
awarded, irrespective of their funding amounts. All together, the grantees we
spoke with accounted for 90 percent of total HSIPR funds awarded. In addition to
these interviews, we conducted an interview with AASHTO to understand
grantees’ experiences in the aggregate.

Table B. Grantees Interviewed
Grantee Interviewed                              Number         Percentage of        Cumulative
                                                of Grants        Total HSIPR       Percentage of
                                                Received             Funding        Total HSIPR
                                                                                        Funding
California High Speed Rail Authority                   8                 39%                39%
Illinois Department of Transportation                  6                 17%                56%
Washington State Department of Transportation          6                  8%                64%
North Carolina Department of Transportation            5                  6%                69%
New York State Department of Transportation           13                  5%                75%
National Passenger Rail Corporation (Amtrak)           1                  4%                79%
Michigan Department of Transportation                  8                  4%                83%
California Department of Transportation               27                  3%                87%
Missouri Department of Transportation                 12                0.5%                87%
Oregon Department of Transportation                    7                0.2%                87%
Pennsylvania Department of Transportation              5                0.7%                88%
Iowa Department of Transportation                      4                  2%                90%
Source: OIG                                                                                    

To determine the extent to which FRA’s grants management framework for
HSIPR ensures an adequately sized workforce, we interviewed officials from
FRA’s Office of Human Resources and Office of Railroad Policy and
Development, DOT’s Automated Staffing Group, and OST’s Human Resources
Systems Division regarding FRA’s development of its workforce plan. To
independently verify FRA’s workforce composition, we used DOT’s Federal
Personnel Payroll System and DOT’s Monster Government Solutions platform.


Exhibit A. Scope and Methodology
                                                                            19


To determine the extent to which FRA has established performance mechanisms
for HSIPR, we reviewed the Agency’s primary planning documents for high speed
rail. We also consulted prior OIG and GAO work to identify previous assessments
and recommendations regarding FRA’s HSIPR performance goals and measures.
We reviewed Federal guidance on the setting of performance goals and measures,
including the Government Performance and Results Act of 1993 (GPRA), the
GPRA Modernization Act of 2010, and OMB’s Circular A11 (2011). Finally, we
reviewed FRA’s HSIPR grant monitoring plan and associated monitoring tools to
determine the extent to which mechanisms are in place to ensure program
performance and compliance.




Exhibit A. Scope and Methodology
                                                                20



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                   Title

Toayoa Aldridge                        Program Director

Amanda Seese                           Project Manager

Keith Klindworth                       Senior Analyst

Aaron Schwarz                          Analyst

James Quinn                            Analyst

Michael Day                            Analyst

Karen Sloan                            Communications Officer

Susan Neill                            Writer/Editor

Petra Swartzlander                     Senior Statistician

Megha Joshipura                        Statistician

William Savage                         IT Specialist




Exhibit B. Major Contributors To This Report
           APPENDIX. AGENCY COMMENTS                                                                  21




           U.S. Department
           of Transportation
           Federal Railroad Administration                 MEMORANDUM
Subject:   INFORMATION: Completing a Grants Management                            Date:   August 16, 2012
           Framework Can Enhance FRA’s Administration of the
           HSIPR Program
  From:    Joseph Szabo
           Federal Railroad Administrator
    To:    Mitch Behm
                                                                           Reply to the
           Assistant Inspector General for                                    Attn of:    ROA-03
           Rail, Maritime, and Economic Analysis


           In the three years since Congress enacted the American Recovery and Reinvestment Act
           (ARRA) and fiscal year 2010 Department of Transportation appropriations act, FRA has
           established one of the largest discretionary infrastructure investment programs in U.S. history,
           while constrained by unprecedented resource constraints and time limitations. In so doing, FRA
           identified worthy projects, obligated almost $10 billion in project funding, used innovative and
           appropriate risk management practices, and began effective grant oversight. The Nation is
           already seeing tangible results from these investments: 27 projects (totaling $1.5 billion in
           project funding) in 14 States are under construction or complete. Additionally, another 19
           projects (totaling $1.3 billion in project funding) in three additional States and the District of
           Columbia will likely begin construction before the end of December 2012.

           FRA overcame challenges facing the High-Speed Intercity Passenger Rail (HSIPR) program by
           prioritizing aspects of program development and ensuring that oversight measures were in place
           at the appropriate stage of the program and for each project. FRA recognized early on that
           resource and time constraints would preclude a typical implementation approach of sequentially
           writing grant management policies and processes. As such, FRA first established the HSIPR
           program’s vision, goals, and funding parameters, and then focused on project selection,
           obligation, and prioritized, post-award grant management process deployment. FRA is now
           engaged in continual business process improvement and refinement of policies and procedures to
           best achieve the program’s goals for taxpayers and stakeholders

           The OIG’s draft report focuses on some grant management practices that FRA had not fully
           documented during the audit period of review, without taking issue with the quality of FRA’s
           grant management practices. FRA has since documented its oversight practices at every stage of
           the grant lifecycle, hired and trained several new grant managers, and has continued to execute
           its risk-based monitoring plan.




           Appendix. Agency Comments
                                                                                         22


FRA Grant Management Strategy Focused on Critical Needs First

To overcome resource and time challenges, FRA prioritized HSIPR program development to
ensure that oversight measures were in place at the appropriate stage of the program and for each
project. Focusing on the most critical needs first, FRA built the HSIPR program’s requirements
and investment goals, conducted outreach, developed application guidelines, established the
application process, and identified investment priorities. In seven Notices of Funding
Availability beginning in June 2009, FRA articulated its approach to administering the HSIPR
program. FRA worked with grantees to develop tools and resources, such as statement of work
templates. FRA staff conducted thorough reviews of required documents to ensure accurate and
complete scope, schedule, and budget documents were in place. In its review of the HSIPR
program grant application process, the Government Accountability Office (GAO) reported that,
“FRA established a fair and objective approach for distributing [HSIPR funds] and substantially
followed recommended discretionary grant award practices used throughout the government.”

FRA used lessons learned from other grant-making agencies to establish robust grant
management processes. In September 2010, FRA issued its Grants Management Manual
(Manual) when it had obligated less than nine percent of program funding to grantees. The
Manual documented critical processes in the grant-management lifecycle. The Manual also
identified areas that, while not immediately critical given the stage of projects and the program,
would be necessary later in the grant lifecycle, such as grant closeout and escalation of long-term
or serious compliance issues.

In March 2011, FRA issued its Interim Monitoring Plan (Interim Plan) as a companion to the
Manual. The Interim Plan outlined requirements and a risk-based approach to selecting HSIPR
projects for monitoring, and created a schedule for conducting desk and site reviews of 24
projects, or 99% of obligated funding and 71% of HSIPR grant recipient agencies at the time the
plan was issued. Based on the Interim Plan, FRA has now completed site visits in California,
Illinois, Maine, Michigan, North Carolina, and Vermont, monitoring over $3.1 billion in project
funds.

Continuing to develop the HSIPR program according to its critical-needs-first approach, FRA
has issued further guidance and oversight materials since OIG’s audit review period, including:

      Deliverable Review Guidebook, December 2011, which assigns responsibilities and
       identifies required actions and their durations.

      Project Management Tool and Database, January 2012, which assist staff in
       efficiently tracking deliverables and other requirements. FRA has mapped the nearly
       3,000 HSIPR program reports and deliverables from the funded projects’ statements of
       work and grant agreements. This tool will subsequently enable management of a broad
       set of tasks, integrating project management and oversight practices that exceed typical
       grant administration practices.

      Long-Term Monitoring Plan, March 2012 (issued in advance of FRA’s first major
       construction season), which refines FRA’s risk-based approach to selecting grants for


Appendix. Agency Comments
                                                                                        23


       onsite, intensive monitoring and establishes the detailed processes, templates, and
       checklists for desk and onsite monitoring.

FRA Provides Extensive Outreach to Grantees

Outreach, especially to potential grantees, has been a cornerstone of FRA’s HSIPR program
implementation since inception. FRA’s communications approach fosters the success of
complex Federal rail infrastructure investments and takes into account the multi-faceted nature of
many HSIPR projects. FRA will continue to conduct and refine its grantee outreach process to
provide a meaningful and effective method of interaction with grantees in subsequent phases of
the program.

FRA has provided varied and extensive guidance to grantees and has ensured an effective
dialogue to address questions, concerns, and to further improve the program. GAO reported that
FRA “conducted extensive outreach to potential applicants, including participating in biweekly
conference calls, providing several public presentations on the program, and conducting one-on-
one site visits with potential applicants.” Moreover, GAO noted that the “applicants [GAO]
spoke with praised FRA’s communication and stated that FRA officials did a good job providing
information and answering questions during the period leading up to the pre-application and
application deadlines.” After each round of funding, FRA made feedback available to applicants.
FRA created customer service leads and, later, regional teams to offer technical assistance and
address grantee concerns. These teams have developed relationships with grantees and are in
constant communication with them, often on a daily basis.

FRA also has established methods for grantees to interact with FRA more generally regarding
the program and program management. For example, FRA conducts monthly stakeholder
outreach calls to identify questions and concerns, address issues, and share best practices. FRA
also formally surveyed grantees about how to tailor the outreach calls to their needs.
Additionally, FRA’s Monitoring Plan elicits grantee feedback about FRA performance, which
FRA then uses to improve processes and resources.

FRA Staffing and Training Strategy Tracks Critical Needs First

FRA built its grant and project management organization carefully and strategically. Due to the
complexity of many of the rail infrastructure projects, FRA deploys integrated regional teams to
oversee project development and delivery across all programs, which include staff with expertise
in engineering, environmental analysis, legal review, safety assurance, and grant management.
Regional team leads meet as a group at least weekly to review project progress, make related
decisions, and address open issues or recommendations. FRA also oversees service contractors
for additional, targeted technical expertise and program support delivered to grant recipients.

As more projects move into execution, FRA continues to fill its allocated positions, remaining
focused on recruiting individuals with relevant expertise and talent. As of August 2012, 86
percent of the allocated positions for the Office of Passenger and Freight Programs (the HSIPR
program lead office) are staffed. FRA has filled six of seven full-time grant manager positions.




Appendix. Agency Comments
                                                                                        24


Each manager has, or will soon have, an industry certificate (reflecting approximately 120 hours
of training) and a minimum of 3 years of related experience.

FRA provides staff training in advance of each major HSIPR implementation stage, such as
application review and monitoring. As it continues to develop project management tools and
resources, FRA also provides additional training and refresher opportunities to ensure effective
implementation of program requirements. For example, in June 2011, FRA convened a fraud
awareness training session led by OIG experts for grant managers, regional managers, other FRA
staff, and grantees. Following its critical-path program implementation processes, FRA will
ultimately consolidate its training activities into an overall curriculum.

FRA Uses Organizational and Project Goals and Performance Measures

Through a combination of tools, FRA has a system of goals, requirements, and performance
measures to monitor achievement at the national and project levels. First, consistent with the
GPRA Modernization Act, FRA reports on and discusses its HSIPR program performance
relative to established goals about every 8 weeks with the Office of the Secretary of
Transportation. These scorecard reviews include discussions of safety data, HSIPR program
accomplishments, pending rulemakings, and sustainability efforts. Moreover, for fiscal years
2012 and 2013, the Department of Transportation included HSIPR construction among its
agency priority goals. FRA reports quarterly on this measure.

In addition, regarding project and grantee performance, FRA tracks obligations, outlays, and
construction, as well as major milestones, including NEPA and project completion. Through its
Project Management Tool and Database, FRA routinely tracks each project against the
performance and milestone goals established in the statements of work. Additionally, FRA’s
July 2012 version of the Project Management Tool enables enhanced tracking of deliverables,
facilitates the deliverables review process, and allows grants management staff to anticipate and
plan their workloads. FRA also monitors the status of State rail planning efforts across the
country.



OIG Recommendations and FRA Responses

OIG Recommendation 1: Establish milestones for the agency’s technical assistance and
business process workgroups to complete guidance on grant management policies and
procedures.

   FRA Response: Concur.

   With FRA’s release of the Manual in March 2012, its business process workgroup completed
   its goal to establish comprehensive guidance on grant management policies and procedures.
   FRA will continue to build its Project Management Tool to support the processes outlined in
   the Manual. FRA will release the next version of the Project Management Tool in October
   2012, enabling more efficient tracking of grantee compliance with grant terms and


Appendix. Agency Comments
                                                                                     25


   conditions. FRA is developing a plan for delivering long-term training and technical
   assistance to grantees and stakeholders, which will be available in November 2012.

OIG Recommendation 2: Establish a process for HSIPR grantees to provide standardized
feedback on the program.

   FRA Response: Concur.

   By October 2012, FRA will establish a web-based inquiry/communication mechanism that
   grantees and other stakeholders may use to provide anonymous feedback on our program
   management processes. FRA will continue using existing information-sharing and grantee
   feedback channels, in addition to daily contacts the grantees have with FRA regional teams.
   These feedback channels include monthly conference calls with grantees, the grant
   management electronic mailbox, and the section in the monitoring checklist that solicits
   grantee feedback on FRA. FRA will also continue to make the best possible use of other
   opportunities for feedback, such as the February 2011 grantee feedback survey, the
   November 2011 institutional stakeholder meeting, and interactive sessions at other industry
   events.

OIG Recommendation 3: Develop a comprehensive grants management training curriculum
for HSIPR staff that includes a required fraud training component.

   FRA Response: Concur.

   By December 2012, FRA will issue a training program for project-focused staff, highlighting
   grant management practices and fraud prevention and awareness. FRA has already
   conducted extensive training for its grant and regional teams on application review, post-
   award monitoring, grantee deliverable review and tracking and fraud awareness. Further, all
   FRA grant managers have completed or are in the process of completing external grants
   management training that generally requires 120 hours of course work.

OIG Recommendation 4: Establish clear program goals that contain measures to assist
managers and decision makers in assessments of HSIPR goal achievement and overall program
progress.

   FRA Response: Concur.

   As described above, consistent with the GPRA Modernization Act, FRA has established clear
   program goals and measures for the HSIPR program and projects. FRA provides
   management with reports on these measures, and discusses its program performance relative
   to established goals about every eight weeks with the Office of the Secretary of
   Transportation. These scorecard reviews include discussions of safety data, HSIPR program
   accomplishments, pending rulemakings, and sustainability efforts. Moreover, for fiscal years
   2012 and 2013, the Department of Transportation included HSIPR construction among its
   agency priority goals. FRA reports quarterly on this measure.




Appendix. Agency Comments
                                                                                       26


   The presentation in the OIG draft report that gave rise to this recommendation included a
   survey of documents that FRA used for various purposes, audiences, and at varying times
   during the development and implementation of the HSIPR program. As such, this approach
   may have resulted in the draft report’s asserting the need for more cohesive performance
   measures. FRA believes that such cohesive performance measures currently exist. FRA will
   continue to report on its established measures and goals, and to work with the Office of the
   Secretary to ensure FRA’s continued commitment to providing useful information on the
   status of the HSIPR program. No further action is planned with specific regard to this
   recommendation and we request that it be closed.

OIG Recommendation 5: Develop a standardized mechanism for collecting and tracking
HSIPR grantee performance and compliance metrics.

   FRA Response: Concur.

   The October 2012 version of FRA’s Project Management Tool will enable more efficient
   tracking of grantee compliance with grant terms and conditions, in addition to its existing
   capability to track the more than 3,000 deliverables related to funded projects. Additionally,
   FRA has implemented a complementary database that documents compliance with grantee
   reporting requirements.



We appreciate this opportunity to offer additional perspective on the OIG draft report. We also
appreciate the courtesies of the OIG staff in conducting this review. Please contact Rosalyn G.
Millman, FRA Planning and Performance Officer, at 202.493.1339 with any questions or if we
might be of further assistance.




Appendix. Agency Comments
